No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

Hazhar A. Saved
(Your Name)
VS.
Dean Williams

— RESPONDENT(S)
PROOF OF SERVICE

, do swear or declare that on this date,
I, Hazhar A. Saved
August 24. 2020. as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as followsU.S. Supreme Court 1 First St.. N.E.. Washington. DC. 20543; Andrew Cooper, Assistant Attorney
General; 1300 Broadway St.. 10th FI.. Denver. CO. 80203

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 24. 2020.

3Hazhar A. Sayed, #133608

